IN THE
SUPREME COURT OF THE UNITED STATES
Ronald C. Washington,
Petitioner,

§
§
§

V.

No. •
§

Bobby Lumpkin,
Respondent,

§

MOTION TO EXTEND TIME TO FILE
PETITION FOR WRIT OF CERTIORARI

RECEIVED
AUG 3 1 2021

°Strair

THE CLERK

THE HONORABLE JUDGE OF SAID COURT,
NOW COMES, Ronald C. Washngton, Petitioner, in the above-named case, hereby files this Motion to Extend Time to file Petition for Writ of Certiorari.
As justification for this request for an extension of time the Petitioner states
the following:
I.
The unit has been placed on lockdown starting August 18, 2021, for approximately 30 days, due to an overdose and a fatal stabbing. All of which occurred
within hours of each other.
II
Petition for Rehearing En Banc was denied on July 23, 2021, in the Fifth
Circuit. Original due date would have been on or about October 23, 2021. Petitioner asks this court to extend due date to November 23, 2021 or the time allowed under Rule 30 of the U.S. Supreme Court Rules.
III.
He has no direct access to Unit Law Library for thorough research. As of
now, research informatin and material are limited to three (3) items at a time,
issued on Monday, Wednesday and Friday during late evening mail call. Mail is
hand delivered to the cells. Furthermore, to shepardize a case, counts toward
one (1) of the three (3) items ordered. The shepardized case will be ordered
on the next order to be received on the order following that one on the next
delivery day. A shepardized case would take 5 days to receive. This process
is very time consuming and arduous when working from a cell with another inmate present.
TV.
More time is needed to produce and present material evidence to the court
and make a substantial showing of the denial of a Constitutional right. 28 USC

1

2253(c)(2). The evidence to be provided will show that Petitioner was timebarred through no fault of his own and extraordinary circumstance(s) prevented the timely filing.
V.
Petitioner can and will show _the nature of his case, and state when and
how the information was discovered.
Respectfully submitted,

Ronald C. Washing
CERTIFICATE OF SERVICE

This is to certify that a true and correct copy of the foregoing MOTION
TO EXTEND TIME TO FILE PETITION FOR WRIT OF CERTIORAIR was. mailed out in a
pre-paid envelope on August 23, 2021, to the following:
Asst. Atty. General
Casey Solomon
P.O. Box 12548
Capitol Station
Austin, TX 78711

U.S. Supteme Court
One 1st St. NE
Washington, DC 20543

Ronald C. Washing
Beto Unit
TDCJ#1839046
1391 FM 3328
Tenn. Colony, TX 75880

2

Case: 20-20299

Document: 00515840518 Page: 1 Date Filed: 04/28/2021

Eintteb iptate5 Court of appeal5
for tbe jf titb Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 20-20299

April 28, 2021
Lyle W. Cayce
Clerk

RONALD CHARLES WASHINGTON,

Petitioner—Appellant,
versus
BOBBY LUMPKIN, DIRECTOR, TEXAS DEPARTMENT OF
CRIMINAL JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent— Appellee .

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:18-CV-95

ORDER:
Ronald Charles Washington moves for a certificate of appealability
("COA") to appeal the dismissal of his 28 U.S.C. § 2254 petition, asserting
that the district court erred by declining to equitably toll the statute of
limitations.
To obtain a COA, a movant must make "a substantial showing of the
denial of a constitutional right." 28 U.S.C. § 2253(c)(2); see Slack v.
McDaniel, 529 U.S. 473, 484 (2000). Where, as here, the district court has
denied a request for habeas relief on procedural grounds, the movant must
show that jurists of reason could find it debatable both whether "the petition

Case: 20-20299

Document: 00515840518 Page: 2 Date Filed: 04/28/2021
No. 20-20299

states a valid claim of the denial of a constitutional right" and whether "the
district court was correct in its procedural ruling." Slack, 529 U.S. at 484.
Washington has not met this standard.1

•

Accordingly, IT IS ORDERED that the motion for a COA is
DENIED; Washington's other pending motions are DENIED as moot.

/s/ Catharina Haynes
CATHARINA HAYNES
United States Circuit Judge

1 In fact, Washington concedes that "jurists of reason would NOT find it debatable
whether the district court was correct" in concluding that his petition was time-barred, as
he had not provided any evidence warranting equitable tolling to the district court.
Although he now submits materials purporting to show that he encountered difficulties in
getting certain state court records, our court does not consider new evidence on appeal.
Theriot v. Parish of Jefferson, 185 F.3d 477, 491 n.26 (5th Cir. 1999). That rule is especially
pertinent here, as Washington does not meaningfully explain why he did not present these
materials—which apparently relate to events in the first eight months of 2017 — to the
district court in connection with his filings in December 2017.

Document: 00515949879 Page: 1 Date Filed: 07/23/2021

Case: 20-20299

Muiteb 6tate5 Court of appeat5
for tije fifth Circuit
No. 20-20299

RONALD CHARLES WASHINGTON,
Petitioner—Appellant,
versus
BOBBY LUMPKIN, DIRECTOR, TEXAS DEPARTMENT OF
CRIMINAL JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent—Appellee.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:18-CV-95

ON PETITION FOR REHEARING EN BANC
Before STEWART, HAYNES, and Ho, Circuit Judges.
PER CURIAM:
Treating .the petition for rehearing en banc as a motion for
reconsideration (5TH CIR. R. 35 I.O.P.), the motion for reconsideration
is DENIED. Because no member of the panel or judge in regular active
service requested that the court be polled on rehearing en banc (FED. R.
APP. P. 35 and 5TH CIR. R. 35), the petition for rehearing en banc is
DENIED.

